           BUYING PROGRAM OF THE STANDARD
       AUTOMATED MATERIEL MANAGEMENT SYSTEM
         AUTOMATED SMALL PURCHASE SYSTEM:
         DEFENSE SUPPLY CENTER PHILADELPHIA

Report No. D-2001-077                   March 13, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
BPA                  Blanket Purchase Agreement
DLA                  Defense Logistics Agency
DSCP                 Defense Supply Center Philadelphia
NSN                  National Stock Number
SAMMS                Standard Automated Materiel Management System
SASPS                Standard Automated Materiel Management System Automated
                        Small Purchase System
SPEDE                Standard Automated Materiel Management System Procurement
                        by Electronic Data Exchange
                          Office of the Inspector General, DoD
Report No. D-2001-077                                                               March 13, 2001
    (Project No. D2000LD-0116)


           Buying Program of the Standard Automated Materiel
          Management System Automated Small Purchase System:
                   Defense Supply Center Philadelphia

                                     Executive Summary

Introduction. The Standard Automated Materiel Management System Automated
Small Purchase System is a fully automated micro-purchase∗ system used by the
General and Industrial Directorate at the Defense Supply Center Philadelphia. As
implemented at the General and Industrial Directorate, the Standard Automated
Materiel Management System Automated Small Purchase System was used in
conjunction with the Standard Automated Materiel Management System Procurement
by Electronic Data Interchange to provide electronic commerce linkage to a single
blanket purchase agreement vendor.

The Defense Supply Center Philadelphia made $3.79 billion in total purchases during
FY 1999 to support DoD and non-DoD customers. The General and Industrial
Directorate, which manages one of four commodity lines at the supply center, made
about $779.1 million in purchases. The Defense Supply Center Philadelphia made
about $52.6 million in micro-purchases during the 12-month period from April 1, 1999,
through March 31, 2000, using the Standard Automated Materiel Management System
Automated Small Purchase System. The General and Industrial Directorate used this
system to process 52,323 micro-purchase orders valued at $34.5 million for the same
12-month period. The audit looked at 9,733 micro-purchases valued at about
$14 million.

Objectives. Our overall audit objective was to evaluate the buying program of the
Standard Automated Materiel Management System Automated Small Purchase System.
Specifically, we determined whether the buying program had adequate controls for
ensuring that contracts awarded for small purchases were at fair and reasonable prices.
We also reviewed the management control program as it related to the overall audit
objective.

Results. Vendors were not abiding by the terms of blanket purchase agreements with
the Defense Supply Center Philadelphia that constrained vendors to a 30 percent
markup over vendor cost. As a result, we projected that 4,105 of 9,733 micro-
purchases could have been purchased for an estimated $1.2 million less than the nearly
$14 million paid. If the Defense Supply Center Philadelphia improves management


∗
 Micro-purchase is defined by the Federal Acquisition Regulation part 2, “Definition of Words and
 Terms,” as purchases not exceeding $2,500 per order.
controls on micro-purchases, it could avoid about $7.2 million of costs over the 6-year
Future Years Defense Program. For details on the audit results, see the Finding
section.

See Appendix A for details on our review of the management control program as it
relates to the controls for micro-purchases in the Standard Automated Materiel
Management System Automated Small Purchase System.

Summary of Recommendations. We recommend that the Defense Logistics Agency,
in conjunction with the Commander, Defense Supply Center Philadelphia, implement a
competitive procurement procedure by replacing the electronic commerce interface
portion of the Standard Automated Materiel Management System Automated Small
Purchase System; provide training to Standard Automated Materiel Management
System Automated Small Purchase System buyers and develop a user’s guide; revise
the methodology used by the Contract Integrity Office in calculating vendor
overcharges; aggressively pursue collection of overpayments for the purchase orders
listed in Appendix C; and develop performance measures and provide quarterly reports
on the status of overpricing of Standard Automated Materiel Management System
Automated Small Purchase System procurements for all supply centers.

Management Comments. The Defense Logistics Agency concurred with the
recommendations to implement competitive procurement procedures, provide training
to buyers, aggressively pursue collection of refunds due from vendors, and develop
performance measures and provide quarterly reports on the status of overpricing of
Standard Automated Materiel Management System Automated Small Purchase System
procurements. The Defense Logistics Agency nonconcurred with changing the
methodology used to compute vendor overcharges. The Defense Logistics Agency
stated that the projected savings cited in the report were overstated because savings
from in-house audit programs were not taken into consideration. Additionally, the
Defense Logistics Agency stated that the statistical sampling methodology used by the
audit team was incorrect. See the Finding section of the report for a discussion of
management comments and the Management Comments sections of the report for the
complete text of the comments.

Audit Response. Defense Logistics Agency comments were responsive except for the
comments on the methodology for computing vendor overcharges and the statistical
sampling methodology. The methodology used by the Defense Logistics Agency to
identify overcharges did not adequately focus on individual purchase orders in
identifying an overcharge. Further, our statistical sampling methodology was valid and
our method for determining whether each purchase order was an overcharge or was
within the markup limitation was proper. Based on the comments received, we revised
the recommendation on collection of overcharges to add more specific action. We
request that the Defense Logistics Agency provide additional comments in response to
the final report by May 14, 2001.




                                           ii
Table of Contents

Executive Summary                                                     i

Introduction
     Background                                                       1
     Objectives                                                       2

Finding
     Standard Automated Materiel Management System Automated Small
        Purchase System                                               3


Appendixes
     A. Audit Process
          Scope                                                      16
          Methodology                                                17
          Management Control Program Review                          19
     B. Prior Coverage                                               20
     C. Selected Markups                                             21
     D. Report Distribution                                          22

Management Comments
     Defense Logistics Agency                                        25
Background
           Defense Supply Center Philadelphia. The Defense Supply Center Philadelphia
           (DSCP) is one of three Defense Logistics Agency (DLA) supply centers. The
           other supply centers are Defense Supply Center Columbus and Defense Supply
           Center Richmond. DLA supply centers manage spare parts and other
           consumable items for DoD. DSCP is organized along commodity lines into four
           directoratesClothing and Textiles, General and Industrial, Medical, and
           Subsistence. The General and Industrial Directorate (General and Industrial)
           contains commodity business units that include benchstock, facilities
           maintenance, general hardware, metals, move and store material, and
           operational equipment. DSCP purchases, in support of both DoD and non-DoD
           customers worldwide, totaled approximately $3.79 billion in FY 1999. General
           and Industrial purchases in FY 1999 were $779.1 million, about 21 percent of
           total DSCP purchases. During the 12-month period from April 1, 1999,
           through March 31, 2000, DSCP had about $52.6 million in Standard Automated
           Materiel Management System (SAMMS) Automated Small Purchase System
           (SASPS) micro-purchases.1

           Standard Automated Materiel Management System Automated Small
           Purchase System. General and Industrial used a variety of contract vehicles
           and procurement systems to purchase material. For micro-purchases, General
           and Industrial used SASPS. SASPS, in conjunction with the SAMMS
           Procurement by Electronic Data Exchange (SPEDE), automated the
           procurement of noncomplex items2 with a dollar value of $2,500 or less per
           purchase order. SASPS3 automation was designed to process micro-purchase
           orders through the procurement system without manual review or intervention.

           General and Industrial Blanket Purchase Agreement. General and Industrial
           uses blanket purchase agreements as the contractual vehicle for micro-purchases
           made by SASPS. A blanket purchase agreement is not a contract or agreement
           to sell items at any given price or quantity. Purchases made by DLA customers
           in the amount of $2,500 or less are automatically routed through SASPS rather
           than SAMMS if they are for national stock number (NSN) items that are
           included in a BPA and the items are not in stock.

           A purchase begins when SASPS transmits an electronic data interface request
           for quote through SPEDE to a vendor who has signed a BPA with General and
           Industrial. SASPS purchases are limited to vendors who have signed a BPA.4

1
    Micro-purchases are defined by the Federal Acquisition Regulation part 2, “Definitions of Words and
    Terms,” as those purchases not exceeding $2,500 per order.
2
    Noncomplex items are those items that have no special manufacturing requirements or specifications.
3
    References throughout this report to SASPS are inclusive references to mean SASPS/SPEDE unless
    otherwise noted.
4
    Although each vendor has a BPA, DCSP stated that the terms of the BPAs for micro purchase are
    identical except for the list of items to be provided by the individual vendor.

                                                      1
     The vendor electronically responds with a quote, and, if that quote is within
     prescribed parameters, SASPS will automatically transmit a purchase order to
     the vendor. A contractual obligation is in effect when the Government issues
     the award notification for the purchase order to the vendor. As of
     October 2000, there were approximately 231 vendors with BPAs that provide
     products to General and Industrial.


Objectives
     Our overall audit objective was to evaluate the buying program of SASPS.
     Specifically, we determined whether the buying program had adequate controls
     for ensuring that contracts awarded for small purchases were at fair and
     reasonable prices. We also reviewed the management control program as it
     related to the overall audit objective. Appendix A discusses the scope and
     methodology used to accomplish the objectives, and our review of the
     management control program. Appendix B discusses prior coverage.




                                        2
           Standard Automated Materiel
           Management System Automated Small
           Purchase System
           Vendors were not abiding by the terms of BPAs with DSCP that
           constrained vendors to a 30 percent markup over vendor cost. Also,
           items were purchased through one BPA vendor when they were available
           from other BPA vendors at a lower price. Those conditions occurred
           because SASPS did not provide the capability to compete purchase
           orders among BPA vendors, and SASPS buyers were not adequately
           trained to redirect purchase orders to vendors having a lower price.
           Further, DSCP programs designed to recover overpayments did not fully
           achieve their objective. Consequently, DSCP could have purchased
           items for $19,809 less for 59 of the 120 purchase orders valued at
           $167,156 in our sample. As a result, we projected for the $14 million
           subset of the universe included in our review that DSCP spent an
           estimated $1.2 million on 4,105 SASPS purchases that could have been
           put to better use for a 1-year period. If DSCP does not improve
           management controls, DSCP could lose the opportunity to put
           $7.2 million to better use, for that subset only, during the 6-year Future
           Years Defense Program.


Implementation of SASPS
    SASPS is an automated system used by DSCP to make micro-purchases from
    vendors who have signed a BPA to provide specific items. Purchases for items
    on the BPAs that exceed the $2,500 SASPS micro-purchase threshold and
    purchases for items not included in the BPAs are made through standard
    contracting methods. SASPS is used in three of the four directorates at DSCP;
    the Subsistence Directorate does not use SASPS. Rather than SAMMS or
    SASPS, the Subsistence Directorate uses a unique purchase system that focuses
    on commercial buying practices and direct vendor delivery.

    Both the Clothing and Textile Directorate and the Medical Directorate at DSCP
    use SASPS in conjunction with SPEDE Rehost to competitively select vendors
    offering the best price for an item. SPEDE Rehost is a computer application
    that provides the electronic commerce linkage for a request for quote to be sent
    to multiple vendors for each micro-purchase order. The Clothing and Textile
    Directorate and the Medical Directorate accounted for about 34 percent
    ($18.1 million) of the $52.6 million in SASPS purchases made at DSCP during
    the April 1, 1999, to March 31, 2000, time period.

    General and Industrial uses SASPS with SPEDE, which has the electronic
    commerce linkage that enables a request for quote to be sent to a single vendor
    with a BPA. An important difference between SPEDE and SPEDE Rehost is
    that SPEDE automatically transmits the request for quote to only one vendor,

                                        3
     whereas SPEDE Rehost transmits the request for quote to multiple vendors.
     SASPS, with SPEDE, rotates vendors who sell particular NSNs on a daily basis.
     All purchase orders for a specific NSN are automatically routed to the vendor
     that has rotated to the top of the list for that day. As long as the vendor’s
     electronic response to the request for quote for an item’s price does not exceed
     by more than 25 percent any price paid in the past year, SASPS automatically
     accepts the quote. If the price quote exceeds the 25 percent threshold, SASPS
     alerts the SASPS buyer to review the purchase order. The buyer may accept the
     quote, cancel the order, redirect the request for quote to another vendor, or
     refer the purchase order to the item manager. General and Industrial accounted
     for about 66 percent ($34.5 million) of the $52.6 million in SASPS purchases
     made at DSCP during the April 1, 1999, to March 31, 2000, time period.


Criteria
     Fair and Reasonable Pricing. The Federal Acquisition Regulation prescribes
     policies and procedures for the acquisition of supplies and services, including
     construction, research and development, and commercial itemsthe aggregate
     amount of which does not exceed the simplified acquisition threshold.
     Specifically, Federal Acquisition Regulation subpart 13.106-3(a), “Award and
     Documentation,” states that before making an award, the contracting officer
     must determine that the price is fair and reasonable. Federal Acquisition
     Regulation subpart 13.106-3(a)(1) further states that whenever possible, price
     reasonableness should be based on competitive quotations or offers. However,
     Federal Acquisition Regulation subpart 13.202(a)(2), “Purchase Guidelines,”
     states that “micro-purchases may be awarded without soliciting competitive
     quotations if the contracting officer or individuals appointed in accordance with
     [subpart] 1.603-3(b) considers the price to be reasonable.”

     Blanket Purchase Agreement Terms. The General and Industrial BPAs
     established conditions and terms for micro-purchases made under SASPS.
     Specifically, each General and Industrial BPA states:
                This Blanket Purchase Agreement (BPA) is not a contract. It is a
                vehicle establishing the terms, conditions, and provisions applicable to
                the automated ordering of supplies having a value of $2,500.00 by the
                Defense Supply Center Philadelphia (DSCP) using an electronic
                order, designated a “Call”, and Electronic Data Interchange (EDI).
                The “Call” is the Government’s request for a quotation. A contract
                will not come into existence until all of the following have occurred:
                (i) The government has received an EDI response from the BPA
                Holder in accordance with paragraph 4, entitled ‘Ordering
                Procedures’; (ii) Any and all reviews, clarifications and adjustments
                have been made.         (See Subparagraph (e) under Paragraph 5,
                “SAMMS Procurement by Electronic Data Exchange (SPEDE)”; and
                (iii) The SPEDE Award Report Notification is transmitted to the BPA
                Holder who responded to the “Call”. The SPEDE Award Report
                Notification gives rise to a legally binding, bilateral contract.


                                              4
    BPA terms include ordering procedures, general description of the types of
    items to be provided by the vendor, dollar limitations on total value of orders,
    allowable vendor markups, warranties, and payment terms. Key provisions of
    the terms specified in the General and Industrial BPAs are listed below.

           •   The vendor has an imposed obligation to control costs, including base
               costs and supplier markups.

           •   Allowable vendor markup is less than or equal to 30 percent of the
               cost of goods sold. The markup includes costs such as packaging and
               marking, freight out, and profit.

           •   Cost of goods sold is defined as including manufacturing costs,
               freight in, overhead, labor, and special processing costs that add
               value to an item if the vendor is also the manufacturer. If the vendor
               is a supplier, the cost of goods sold includes purchase cost,
               certification, freight in, and processing costs (for example, plating or
               heat treating).

           •   To prevent layering of costs and markups, the vendors agree to
               purchase required materials and supplies from original equipment
               manufacturers or authorized distributors.

           •   If an item has more than one source of supply, the vendor is required
               to obtain at least two quotes for the item to ensure the most
               economical price for the Government.

           •   The prices charged by the vendor for the supplies ordered must be
               full and complete prices, including taxes, packaging, and shipping.
               Additionally, the prices charged must reflect any and all volume and
               trade discounts.


SASPS Purchased Items
    Vendors were not abiding by the terms of the BPAs with DSCP that constrained
    vendors to a 30 percent markup over cost. Also, items were purchased through
    one vendor when they were available from other vendors at a lower price.
    DSCP could have purchased items for $19,809 less for 59 of the 120 purchase
    orders, valued at $167,156, in our sample.

    Sample Group. We reviewed a stratified random sample of 120 purchase
    orders valued at $167,156 made between April 1, 1999, and March 31, 2000, at
    the General and Industrial. DSCP had about $52.6 million in SASPS micro-
    purchases for the same 12-month period. Our stratified sample was taken from
    a subset of a total universe of 52,323 SASPS micro-purchase orders, valued at
    about $34.5 million, at General and Industrial. We focused on higher dollar
    purchase orders (value of $500 or greater) that had pricing ratios of 1.5 or
    greater. The pricing ratio was based on the price DSCP paid for an item

                                         5
            compared to the price at which DSCP sold the same item. That subset consisted
            of 9,733 purchase orders, valued at about $14 million. (Hereafter in this report,
            the subset of 9,733 purchase orders will be referred to as the sample universe.)
            A breakout of the General and Industrial universe of SASPS purchase orders
            and the subset from which our sample was selected is shown in Table 1. See
            Appendix A for a detailed discussion of the stratified sampling methodology.


                               Table 1. General and Industrial Universe
                                      (April 1, 1999, through March 31, 2000)

                                                                                             Value
                SASPS Purchase Orders                             Number                   (millions)
                Value less than $500                              31,123                     $ 5.2
                Value $500 or greater                             21,200                      29.3
                 Total                                            52,323                     $34.5


                Sample Universe∗                                     9,733                   $14.0
                Random Sample                                          120                   $ 0.167

                 *Sample universe derived from purchase orders with value of $500 or greater and
                  a pricing ratio of 1.5 or greater.




            Focus of Review. We evaluated the sample purchase orders and made dollar
            projections using two approaches. First, we obtained vendor invoices for the
            sample purchase orders and compared the vendor cost with the price paid by
            DSCP to determine markups that exceeded the 30 percent allowed by the terms
            of the BPA. We then calculated the charges that exceeded the 30 percent
            limitation. Second, from the total General and Industrial universe of SASPS
            purchases, we identified instances of vendors charging General and Industrial a
            higher unit price than a second or third vendor charged for the same item. We
            calculated an overcharge only in those instances where the price was for a
            quantity less than or equal to the quantity of the sample purchase order. Based
            on both calculations, 59 of the 120 purchase orders in our sample5 could have
            been purchased for $19,809 less if DSCP had used a competitive system for
            obtaining quotes on purchase orders and vendors with BPAs had observed the
            30 percent markup limitation. That potential monetary benefit represents about
            12 percent of the $167,156 total value of the sample. Projected across the
            sample universe, DSCP spent about $1.2 million more than necessary for 4,105
            out of 9,733 SASPS purchase orders in the sample universe. The sample
            universe was valued at $14 million.




5
    Six of the 120 purchase orders in the audit sample had been canceled prior to our audit.

                                                              6
Blanket Purchase Agreement Vendor Prices
    SASPS did not provide the capability to compete purchase orders among
    vendors with BPAs. In addition, SASPS buyers were not adequately trained to
    redirect purchase orders to vendors with a lower price. Further, DSCP
    programs designed to recover overpayments did not fully achieve their
    objective.

    Competitive Quote Capability. SASPS did not solicit requests for quotes from
    multiple vendors. As a result, the vendor that could offer the lowest price was
    not automatically selected by SASPS. In addition, SASPS buyers were not
    trained to redirect purchase orders to vendors having a lower price. Seventeen
    of the purchase orders in our sample of 120 purchase orders were for items
    purchased from an alternate vendor for a lower price during a 15-month time
    period that included 1 month before and 2 months after the time frame for our
    audit sample. Six of the 17 purchase orders also exceeded the 30 percent
    vendor markup. General and Industrial could have purchased the 17 items for
    $9,788 less from the alternate vendors. In each instance, the quantity purchased
    for the lower price was equal to or less than the quantity for the purchase order
    included in our sample group. For example, General and Industrial purchased
    one tackle block in August 1999 from vendor A for $516.61. Four months
    later, in December 1999, General and Industrial purchased one identical tackle
    block from vendor B for $219.80. Based on the lower price available from
    vendor B, General and Industrial overpaid by about $297 for the purchase order
    in our sample.

    Although SASPS allows a buyer to redirect a purchase order to a specific
    vendor that might have a history of better prices, we were unable to find any
    SASPS buyer in General and Industrial who was aware of that particular
    capability and who reported using it. In addition, General and Industrial did not
    have a user’s guide or other operating procedures that would provide guidance
    to the buyers. Buyers had the opportunity to redirect a purchase order only if
    SASPS had routed a purchase order to a SASPS buyer for manual review
    because the purchase order exceeded the 25 percent pricing differential
    threshold programmed into SASPS. If a purchase order does not exceed the
    25 percent threshold, SASPS automatically processes and awards the purchase
    order to the BPA vendor selected that day even though there may be other BPA
    vendors willing to sell the item for less.

    Recovery of Vendor Markups. DSCP programs designed to recover
    overpayments from vendors did not fully achieve their objective. Forty-eight of
    the 120 purchase orders in our sample had markups above the 30 percent
    allowed by the BPAs. The 48 purchase orders had excessive markups valued at
    $11,480. Six purchase orders, valued at $1,459, were also identified as
    overpriced as a result of the inability of SASPS to compete the request for quote
    among multiple vendors with BPAs. To avoid double counting, the six purchase
    orders were not included in the total saving attributed to excessive markups.
    Therefore, a total saving of $10,021 for 42 purchase orders was used in
    projecting the overcharges across the sample universe.

                                        7
The following two examples illustrate excessive markups from our sample.
First, in February 2000, General and Industrial purchased two material stacking
pallets at $699 each from vendor C. Cost data provided by vendor C showed
that the vendor had purchased the pallets from supplier A for $274 each.
General and Industrial’s cost of $699 represents a markup of 155 percent by
vendor C and an overcharge to General and Industrial of nearly $686. Second,
in May 1999, General and Industrial purchased six round stainless steel
washroom sinks for $409.15 each from vendor D. Cost data provided by
vendor D showed that the vendor had purchased the sinks from supplier B for
$39.17 each. The price that General and Industrial paid represents a markup of
nearly 945 percent and an overcharge of about $2,149 (of which $2,142 was
later refunded to the Government). The table in Appendix C contains additional
examples of vendor markups that exceeded the allowed 30 percent. The
breakdown of purchase orders in our sample and their associated markups is
shown in Table 2.


        Table 2. Vendor Markups for Sample Purchase Orders
      Number of
    Purchase Orders    Value           Range of Markup        Overcharge
          52          $ 76,687     30 percent or less                -
          24            28,667     30.01 to 40 percent          $     456
          15            21,178     40.01 to 100 percent             3,487
           7             7,809     100.01 to 500 percent            4,281
           2             3,776     Greater than 500 percent         3,256
          14            18,866     Incomplete data/markup     not available
                                     undeterminable
            6
         ____           10,173
                      ________     Cancelled purchases             -
                                                               ________
          120         $167,156                                  $11,480



Enforcement of Blanket Purchase Agreement Terms. In addition to manual
reviews by buyers, DSCP had two programs administered by the Contract
Integrity Office (Contract Integrity) that were designed to ensure vendors
complied with the provisions of the General and Industrial BPAs. Our
discussions with DSCP personnel and our audit finding indicate that neither
program was fully achieving the desired results.

        Price Threshold. The first control program focused on those vendors
that exceeded the 25 percent threshold for pricing differentials between a given
purchase order and any unit price paid during the previous 12 months. Purchase
orders that exceeded the 25 percent threshold were automatically listed on a
report provided by the DSCP automated operations personnel to Contract
Integrity. Contract Integrity personnel explained that they judgmentally select
purchase orders from the list of those exceeding the 25 percent threshold for
review but could not provide the criteria used for making that selection.



                                   8
Contract Integrity also could not provide the total number of purchase orders
that exceeded the 25 percent threshold during the April 1, 1999, through
March 31, 2000, time frame.

        Contract Integrity personnel further explained that they researched each
of the selected purchases to determine whether the prices charged General and
Industrial were reasonable. Pricing research included review of the vendor
invoice that documented the price the vendor paid. If the markup price was
determined to exceed the 30 percent allowable vendor markup, Contract
Integrity requested that the vendor provide refunds to the Government.

        For the April 1, 1999, through March 31, 2000, time frame, Contract
Integrity judgmentally selected 128 purchase orders for review from the list of
SASPS purchase orders that exceeded the 25 percent threshold. Of those 128
purchase orders, 42 (about 33 percent) were determined to be fair and
reasonable. Another 54 purchase orders (about 42 percent) were determined to
be unreasonable but supported. In those instances, refunds were not obtained
because the vendors supplied invoices showing that the price charged General
and Industrial was within the 30 percent markup allowed by their BPA. The 32
remaining cases were overcharges. Contract Integrity reported recovering
$9,259 for 16 of those 32 purchase orders. For the other 16 of the 32 purchase
orders with overcharges, Contract Integrity did not collect any refunds. In 12 of
those instances, the amount of the overpricing was too small to negotiate or the
order was cancelled or modified.

         Concerning the last four purchase orders with overcharges, two vendors
initially refused to provide invoice information for two of the purchase orders
and one vendor was recommended for removal as a BPA vendor because two
purchase orders were determined to be unreasonable. Contract Integrity
performed a review of each of the three vendors as part of the annual auditing
program for specific vendors. (The annual review program is discussed in the
paragraph below.) As a result of the individual vendor reviews, the vendor that
had been recommended for termination as a BPA vendor was determined to
have charged more than the 30 percent markup allowed by the BPA for the
items sampled. As of November 2000, that vendor was in the process of
making a refund to the Government and was not terminated as a BPA vendor.
Contract Integrity determined from in-depth reviews that items purchased from
the two other vendors were not overpriced, and as a result, refunds to the
Government were not required.

        Annual Review. The second control program in place at General and
Industrial focused on Contract Integrity annual reviews of selected BPA
vendors. Vendors were judgmentally selected for review by the Contract
Integrity personnel based on the dollar value of business with General and
Industrial, on past experience with the vendor, or on the experience level of the
vendor with the General and Industrial BPA program. For each vendor
included in an annual review, Contract Integrity personnel selected a statistical
sample of purchase orders from the universe of SASPS purchases made from
that vendor during the year. Contract Integrity personnel performed a detailed
review of each of the purchase orders in the sample that included a review of the

                                    9
invoices documenting the price paid by the vendor for the item. If the total
price paid by General and Industrial for all the purchase orders in the sample
exceeded the total of vendor costs for those items by more than the 30 percent
markup allowed by the terms of the BPA, the total value for the sample that was
over 30 percent was projected against the universe of SASPS purchases made
from the vendor. A refund was sought from the vendor based on that
projection.

        The following example illustrates the weakness in the methodology used
by Contract Integrity for identifying overcharges. A recent Contract Integrity
review of a BPA vendor showed that 20 percent of the individual purchase
orders in the Contract Integrity sample exceeded the allowed 30 percent
markup. However, the amount of the markup for the total sample purchase
orders was only 29.92 percent of the total vendor cost for the items in the
sample. As a result, General and Industrial took no action to obtain a refund on
the 20 percent of the individual purchase orders having an excessive markup.
Using methodology that focused on comparing total vendor cost with the total
price paid by General and Industrial, Contract Integrity identified and collected
about $68,000 in refunds from vendors with BPAs for overcharges during
FY 1999.

        The method used by Contract Integrity for computing refunds is not in
the best interest of the Government and is not in keeping with the terms of the
BPA, which limits markups to 30 percent of vendor cost. According to the
terms of the BPA, each purchase order that is processed and accepted by a
vendor is a contract and a stand-alone transaction. Using the Contract Integrity
method of identifying overcharges ignores individual purchase orders that are in
excess of the 30 percent threshold by giving credit for those excesses against the
purchases with a markup of less than 30 percent. If Contract Integrity applied
the same methodology that we used in projecting our sample results, DSCP
would increase the refunds collectible from vendors charging excessive
markups. The methodology used in our audit gave no credit to vendors for
purchase orders that had less than a 30 percent markup. A similar methodology
would ensure that the Contract Integrity reviews addressed overcharges as
intended in the BPA rather than on a net basis.

Collection of Overcharges. During the audit, three vendors made voluntary
refunds valued at about $4,200 to the Government for 3 of the 48 purchase
orders identified as having exceeded the allowable 30 percent markup. As of
February 21, 2001, DSCP had not taken action to collect overpayments made to
vendors for the remaining 45 purchase orders identified by this audit as having
excessive markups. Although 19 purchase orders had markups that may not be
feasible to collect due to the small amount of the potential refund, Appendix C
of this report lists 14 purchase orders having a vendor markup of more than
double the 30 percent markup allowed by the BPAs. The three vendors making
voluntary refunds included one vendor from the list of 14 purchase orders in
Appendix C. The vendor that sold DSCP the washroom sink for a markup of
nearly 945 percent refunded the Government about $2,142 (out of $2,149).
Contract Integrity personnel stated that they did not have immediate plans to
collect refunds for the purchase orders identified during this audit because of

                                    10
    workload considerations. In addition, Contract Integrity personnel explained
    that they had no established criteria for determining those overpayments that
    were of sufficient magnitude to warrant collection.

    Management Oversight. DLA had not focused management attention on
    micro-purchase overcharges and did not develop performance measures or goals
    to track the status of overcharges for purchases made using SASPS. Although
    SASPS buyers and Contract Integrity personnel received automated reports on
    potential overcharges, we found no evidence that those personnel provided any
    status reports to higher level management at DSCP and DLA. Consequently,
    DLA did not evaluate potential overcharges from SASPS micro-purchases or the
    refunds collected on a regular basis. Periodic reports from SASPS buyers and
    Contract Integrity personnel on the status of overcharges and refunds would
    enable DLA management to assess the performance of the program and the need
    to improve controls on overcharges. If DSCP does not improve management
    controls on micro-purchases made by SASPS, DSCP will lose the opportunity to
    put $7.2 million to better use over the 6-year Future Years Defense Program
    based on the projected results of about $1.2 million from our sample.


Competition Benefits and Proposals
    SASPS did not have the capability to compete purchase orders among BPA
    vendors and ensure that DSCP pays fair and reasonable prices for those
    purchases. The inability to compete micro-purchases contributed to the
    weakness in controlling overpricing of SASPS micro-purchases at DSCP.

    In recognition of problems associated with the noncompetitive nature of
    SASPS, DLA headquarters sent a memorandum, dated October 12, 2000, to the
    supply center commanders requesting comments on several proposals. The
    proposals addressed the implementation of competitive systems for micro-
    purchases at all three supply centers. One proposal made in the DLA
    memorandum was to implement an upgraded version of SPEDE Rehost at all the
    supply centers. SPEDE Rehost is an electronic data interface that solicits
    multiple requests for quotes for purchases made under the version of SASPS
    used by the DSCP Clothing and Textile Directorate and Medical Directorate.

    Another proposal made by DLA was to discontinue use of SASPS (both the
    SPEDE and SPEDE Rehost versions) and use an enhanced version of the
    Procurement Automated Contract Evaluation System. The Procurement
    Automated Contract Evaluation System was designed to automatically compete
    requests for quotes and to automatically make an award based on the best value.
    We believe many instances of overpricing could be avoided if a competitive
    purchase system, such as those mentioned in the DLA memorandum, were
    implemented in place of the SPEDE version of SASPS.




                                       11
Management Comments on the Finding and Audit Response
    DLA Comments. DLA partially concurred with the finding, stating that the
    projected savings cited in the report were substantially overstated because they
    do not take into consideration the refunds secured in the routine review of
    SPEDE awards under the DLA BPA audit program. DLA provided the
    washroom sink refund of $2,142 as a case in point and stated that the savings
    used in projecting future savings should have been $7, not $2,149. DLA further
    noted that “although your auditors [the audit team] initially identified this
    overcharge, DLA routinely identifies overcharges and receives refunds. For
    example, within the sample universe reviewed during the audit, DLA received
    refunds in the amount of $45,536 from approximately 20 vendors. Those
    refunds should be included in any projection of savings in future years.”

    Audit Response. Although we commend DLA for timely action in collecting
    $2,142 for the washroom sink overcharge when it was identified by the audit
    team, the inclusion of the overcharge in determining the projected benefits of
    about $1.2 million was appropriate. DLA provided no evidence that in-house
    audit programs would have identified this overcharge or any of the other
    overcharges identified by the audit. As mentioned earlier, over a 1-year period
    the DLA price threshold review recovered $9,259 and the DLA annual review
    recovered $68,000. This shows how poorly the current procedures were
    working. In addition, the fact that DLA was able to collect $2,142 out of the
    $2,149 identified by the audit team serves to substantiate the validity of
    projected potential monetary benefits identified in the report. DLA did not
    provide any documentation that substantiated that purchase orders reviewed in
    the DLA audits of selected BPA vendors were among those drawn in the audit
    sample of 120 purchase orders. DLA also did not document that the $45,536
    refund that DLA obtained from 20 BPA vendors included refunds for any of the
    48 purchase orders identified by the audit as exceeding the 30 percent markup.
    As a result, the $45,536 recovered by the DLA audit program appears to be
    independent of the potential monetary benefits used in our projections.
    However, even assuming all refunds collected by DLA were for purchase orders
    that were part of our sample universe of 9,733 purchase orders, the $45,536 that
    DLA collected would not materially impact our projection of potential benefits
    ($1.2 million minus $45,536). Further, the use of competitive procedures
    recommended will likely increase potential monetary benefits beyond
    $1.2 million.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 4. to add more specific action. Because this recommendation
    was revised, we request that the Director, Defense Logistics Agency, provide
    additional comments.

                                       12
We recommend that the Director, Defense Logistics Agency, in conjunction
with the Commander, Defense Supply Center Philadelphia:

       1. Implement competitive procurement procedures by replacing the
electronic commerce interface of the Standard Automated Materiel
Management System Automated Small Purchase System with a system that
competes requests for quotes with multiple vendors with blanket purchase
agreements at all Defense Logistics Agency supply centers.

Defense Logistics Agency Comments. DLA concurred, stating that an
assessment of the costs and benefits of making SASPS competitive was in
process prior to the audit. DLA further stated that a systems change request had
been approved and funded to replace the current version of SASPS/SPEDE with
the competitive version, SPEDE Rehost. The estimated completion date is
February 2002.

       2. Provide training to Standard Automated Materiel Management
System Automated Small Purchase System buyers and develop a user’s
guide that provides information on how to use the capability of the system
to redirect purchase orders to blanket purchase agreement vendors offering
the best value.

Defense Logistics Agency Comments. DLA concurred, stating that buyers
have received on-the-job training on how to use the SASPS/SPEDE system. In
addition, a user’s guide has been provided to each DLA Inventory Control Point
using SASPS.

     3. Change the methodology used by the Contract Integrity Office in
computing vendor overcharges.

Defense Logistics Agency Comments. DLA nonconcurred, stating that the
methodology that the audit recommended was not based on statistically sound
practices. DLA further stated that two key statistical errors in our methodology
were the judgmental selection of potentially overpriced awards and the
misapplication of the stratification process. DLA stated that we stratified the
sample and chose awards over the 30 percent markup threshold that would result
in the largest refund amounts and that we then calculated an individual
overcharge on each separate order without considering awards that were under
the 30 percent threshold. DLA also stated that the two statistical errors
combined with using the standard unit price to conduct pricing analysis resulted
in an overstatement of SASPS potential overpricing.

Audit Response. DLA comments were nonresponsive. A problem with the
current methodology is that DLA has used it since 1992. As a result, probably
every vendor knows they can mark up a purchase by 25 percent over the highest
previous price paid before DLA does a theoretical manual review. Also, the
vendors are probably aware that if their overall markups average less than
30 percent they will never be questioned. It is now time to change the process.
Appendix A of the report clearly states that the projections of potential benefits
apply to a subset of the total universe of SASPS purchase orders. We refer to

                                    13
            this subset as the sample universe. Those 9,733 purchase orders that had a price
            ratio of 1.5 or greater were designated as the sample universe. A simple
            random sample was then drawn within each of the subgroups using the SAS6
            programming language. Determination of whether a sample item exceeded the
            30 percent threshold was not accomplished prior to or during random selection
            of the sample. We know of no way in which that might have been accomplished
            with the data provided to us by DSCP on the universe of SASP purchases. If
            DLA had a database that identified which purchase orders exceeded the 30
            percent markup, that information was not provided to us and it does not appear
            that such data was used by Contract Integrity in performing its reviews. The
            statistical methods we employed were neither judgmental nor misapplied.

            Our recommendation refers to the methodology used by Contract Integrity to
            determine vendor compliance with the 30 percent markup provision of the
            BPAs, not the statistical sampling methodology used by DSCP to draw a sample
            of purchase orders for review. As cited in the report, the Contract Integrity
            annual review of a specific BPA vendor focuses on a net assessment of whether
            the prices the vendor was charging DLA were within the 30 percent allowed
            markup. Each individual purchase order included in the sample under the
            Contract Integrity review was not counted as a stand-alone transaction in
            identifying an overcharge or collecting a refund. Because the technique of
            estimating average charges against a 30 percent markup for an entire sample
            group allows overcharges to be dismissed if the sample also contains charges
            that are under the 30 percent threshold, DLA is not collecting dollars that could
            be put to better use.

            Additionally, the net audit assessment method used by Contract Integrity is not
            in keeping with the terms of the BPAs that limit vendor charges to a 30 percent
            markup. The BPAs state that “if an audit/price review results in a
            determination that there has been overpricing with respect to any particular
            call(s) [purchase order(s)], the vendor and DSCP will conduct good-faith
            negotiations toward the end of adjusting the price downward to an acceptable
            level.” The BPAs do not state that “on the average” the markup for all
            purchase orders for a particular vendor will be limited to 30 percent. In
            addition, as noted in our report, each purchase order is a contract between the
            vendor and DLA.

            We did not perform pricing analysis using the standard unit price. As explained
            in Appendix A, the ratio of the unit price DLA paid for an item to the standard
            unit price DLA charges customers was used as the basis of stratifying the
            universe of SASPS purchases prior to selecting the random sample used for the
            audit. We used that approach because, according to the SASPS data for
            April 1, 1999, though March 31, 2000, DLA paid about $7.4 million more for
            the items in the General and Industrial universe of 52,323 SASPS purchase
            orders than it charged its customers. The aggressive pursuit of vendor
            overcharges would help in keeping prices reasonable for both DLA and its
            customers. We request that DLA reconsider its position on the recommendation
            and provide additional comments in the response to the final report.

6
    SAS, originally standing for Statistical Analysis System, is a trademark.

                                                       14
       4. Aggressively pursue collection of refunds due from vendors for
those purchase orders identified in Appendix C of this report.

Defense Logistics Agency Comments. DLA concurred, stating that it will
continue to pursue overcharges in an aggressive manner within the terms of the
BPAs.

Audit Response. As a result of DLA comments, we revised the
recommendation to add more specific action. We request that the Director,
Defense Logistics Agency, provide additional comments, including an estimated
completion date.

        5. Develop performance measures and provide quarterly reports on
the status of overpricing of Standard Automated Materiel Management
System Automated Small Purchase System procurements for all supply
centers.

Defense Logistics Agency Comments. DLA concurred, stating that it routinely
analyzes SASPS data to monitor the automated BPA program and to track
vendor pricing and performance. DLA further stated that quarterly performance
measures and quarterly reports on the status of SASPS overpricing would be
developed.

Audit Response. DLA did not provide the estimated completion date for
developing performance measures and quarterly reports. Therefore, we request
that DLA provide an estimated completion date in its comments in response to
the final report.




                                  15
Appendix A. Audit Process

Scope
    We reviewed a stratified random sample of 120 micro-purchases made through
    SASPS between April 1, 1999, and March 31, 2000, at the General and Industrial
    Directorate at DSCP. We confined our review of SASPS micro-purchases to
    General and Industrial for two reasons. First, General and Industrial made about
    66 percent of the $52.6 million in DSCP micro-purchases. Second, both the
    Clothing and Textiles Directorate and the Medical Directorate use an electronic
    interface application, SPEDE Rehost, which provides a request for quote to
    multiple vendors for each purchase order. The fourth DSCP Directorate,
    Subsistence, does not use SAMMS or SASPS for making procurements.
    Subsistence relies on commercial buying practices and direct vendor delivery to
    make purchases.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains to
    achievement of the following goal, subordinate performance goal, and performance
    measure.

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative superiority
    in key warfighting capabilities. Transform the force by exploiting the Revolution
    in Military Affairs, and reengineer the Department to achieve a 21st century
    infrastructure. (01-DoD-2) FY 2001 Subordinate Performance Goal 2.4: Meet
    combat forces’ needs smarter and faster, with products and services that work
    better and cost less, by improving the efficiency of DoD acquisition processes.
    (01-DoD-2.4) FY 2001 Performance Measure 2.4.5: Percentage of DoD
    paperless transactions. (01-DoD-2.4.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           •   Acquisition Functional Area. Objective: Foster partnerships. Goal:
               Decrease paper transactions by 50 percent through electronic commerce
               and electronic data interchange. (ACQ-2.3)

           •   Logistics Functional Area. Objective: Streamline logistics
               infrastructure. Goal: Implement most successful business practices
               (resulting in reductions of minimally required inventory levels).
               (LOG-3.1)


                                         16
           High-Risk Area. The General Accounting Office has identified several high-risk
           areas in DoD. This report provides coverage of the Defense Contract Management
           high-risk area.


Methodology
           We reviewed a stratified random sample of 120 purchase orders valued at $167,156
           made through SASPS at General and Industrial between April 1, 1999, and
           March 31, 2000. The sample was drawn from a sample universe of 9,733
           purchase orders valued at about $14 million. The sample universe was a stratified
           subset of the total General and Industrial universe of 52,323 SASPS purchase
           orders valued at $34.5 million. For each purchase order in our sample, we
           obtained procurement history data by NSN from three sourcesSAMMS, Federal
           Logistics Record database, and Haystack.7 We reviewed the procurement history
           to verify vendor price and quantity data provided to us from archived SASPS files.
           We also compared quantity and price paid for each NSN item during the past 2
           years with the prices and quantities for the sample purchase orders to identify
           potential overpricing.

           We evaluated the sample purchases and made potential monetary benefits
           projections using two approaches. For the first approach, we requested vendor
           invoices for purchase orders sampled and calculated the maximum price that the
           vendor was allowed to charge General and Industrial. The allowed vendor cost
           (cost of goods sold) consisted of the price paid by the vendor for the item plus
           costs such as freight charges for shipping from the supplier to the vendor. The
           costs that make up the cost of goods sold are excluded from the 30 percent markup
           allowed by the terms of the BPA. We compared the price the vendor was allowed
           to charge General and Industrial with the price actually paid. If the amount paid by
           General and Industrial exceeded the vendor’s cost of goods sold by more than 30
           percent, we calculated the value of that overcharge. In the second approach, we
           reviewed the sample purchase orders and identified the NSNs that had more than
           one purchase order during a 15-month period that included 1 month before our
           sample and 2 months after our sample. We then compared the unit price General
           and Industrial paid in the sample purchase order with the unit prices paid to each
           vendor that provided the item. We calculated potential monetary benefits only in
           those instances where the quantity being purchased was equal to or less than the
           quantity in the sample purchase order. We identified six sample purchase orders
           that both exceeded the 30 percent markup and were available from an alternate
           vendor at a lower cost. In those instances, we used the value of the greatest
           potential monetary benefits for our calculations.

           Use of Computer-Processed Data. We relied on computer-processed data from
           three sources to achieve the audit objective. The first source was the SAMMS
           database in use at DSCP. Procurement data was also obtained from the Federal
           Logistics Record database, maintained by the Defense Logistics Support Center,

7
    Haystack is a commercial on-line system that provides procurement history data by NSN for items sold to
    DoD. It is the product of Information Handling Systems, Incorporated.

                                                       17
Battle Creek, Michigan. We also used procurement data from Haystack, a
commercial logistics database developed and maintained by Information Handling
Systems, Incorporated. Although we did not perform a reliability assessment of
each data element in the data provided, we did determine that the price and
quantity data applicable to our audit were reliable in that they agreed with source
documents such as vendor invoices. Based on comparison with source documents,
we identified six purchase orders in our sample that had been canceled by General
and Industrial prior to our audit, and as a result should not have appeared in the
universe of SASPS transactions. However, we did not find factual errors in the
data reviewed during the audit that would preclude the use of the computer-
processed data to meet the audit objectives or that would materially affect the
conclusions in the report.

Universe and Sample. General and Industrial had a total universe of 52,323
purchase orders valued at $34.5 million that were made under SASPS from
April 1, 1999, through March 31, 2000. Our review used a stratified random
sample of 120 purchase orders valued at $167,156 drawn from a sample universe
of 9,733 purchase orders valued at about $14 million.

Statistical Sampling Methodology. We focused our review of SASPS purchase
orders on a subset of the total General and Industrial universe that appeared to have
the highest potential dollar impact and risk for overcharges. We first excluded
purchase orders with a value of less than $500, leaving a subset of higher value
purchases between $500 and $2,500. That subset of about 21,200 purchase orders
valued at $29.3 million represented about 41 percent of the purchase orders and
nearly 85 percent of the dollar value of the total General and Industrial universe.
The sample universe of 9,733 purchase orders valued at $14 million accounts for
about 19 percent of the total number of purchase orders and nearly 41 percent of
the dollar value of the total General and Industrial universe. To ensure
representation in our sample of NSNs that had single and multiple purchases, we
further refined the higher dollar value subset by separating the purchase orders into
two subgroups. The first contained purchase orders relating to NSN items having
one, two, or three purchase orders and the second subgroup contained purchase
orders relating to NSN items with four or more purchase orders during the 12
months represented by the data. Based on the review of data during the survey
portion of the audit, we then stratified the two subgroups by using the ratio of the
unit price General and Industrial paid BPA vendors for an item to the standard unit
price DLA charged its customers. Purchase orders with a price ratio of 1.5 or
higher were selected as the sample universe. We drew a simple random sample to
select the purchase orders in each subgroup for a total of 120 purchase orders
reviewed during our audit.

Based on the sample purchase orders, we estimated that between 2,930 and 5,280
of the 9,733 purchase orders in the sample universe would have had overcharges,
valued between $386,000 and $1,942,000. The ranges are based on a 95 percent
confidence level. The midpoint of the value range is $1,164,000 and the number
of purchase orders’ midpoint is 4,105.

Use of Technical Assistance. Personnel in the Quantitative Methods Division,
Office of the Assistant Inspector General for Auditing, provided technical support

                                     18
    for this audit. Operations Research Analysts developed the stratified random
    sample and made projections for potential monetary benefits for the portion of the
    universe used for the stratified sample.

    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from March through November 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and organizations
    within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system
    of management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DSCP management controls over the SASPS program.
    Specifically, we reviewed DSCP management controls for ensuring that prices paid
    for SASPS micro-purchases were fair and reasonable. We could not review
    management’s self-evaluation applicable to those controls because no
    documentation was available.

    Adequacy of Management Controls. We identified a material control weakness
    in that the SASPS did not compete micro-purchases among vendors with a BPA.
    DSCP officials identified SASPS as part of an assessable unit. However, in its
    evaluation of SASPS, DSCP officials did not identify the specific material
    management control weaknesses identified by the audit. Specifically, DSCP
    performed tests of the pricing of SASPS buys and found the controls to be
    adequate. However, DSCP could not provide documentation to support the
    attributes tested, extent of testing, and the results of the tests. Therefore, we could
    not determine why DSCP did not identify the material control weakness identified
    by the audit. We projected for the $14 million sample universe included in our
    review that DSCP spent an estimated $1.2 million on 4,105 SASPS purchases that
    could have been put to better use for a 1-year period. If DSCP does not improve
    management controls, DSCP could lose the opportunity to put $7.2 million to
    better use during the 6-year Future Years Defense Program. A copy of the report
    will be provided to the senior official responsible for management controls in
    DLA.




                                          19
Appendix B. Prior Coverage
      During the last 5 years, the General Accounting Office has issued two audit reports
      and the Inspector General, DoD, has issued seven audit reports discussing prices
      for spare parts in the Acquisition Reform environment.

General Accounting Office

      General Accounting Office, Report No. GAO-01-22 (OSD Case No. 2080),
      “Defense Acquisitions: Price Trends for the Defense Logistics Agency’s Weapons
      Systems Parts,” November 2000

      General Accounting Office, Report No. NSIAD-99-90 (OSD Case No. 1808),
      “DoD Pricing of Commercial Items Needs Continued Emphasis,” June 1999

Inspector General, DoD

      Inspector General, DoD, Report No. D-2001-072, “Industrial Prime Vendor
      Program at the Naval Aviation Depot–North Island,” March 5, 2001

      Inspector General, DoD, Report No. D-2000-099, “Procurement of the Propeller
      Blade Heaters for the C-130 and P-3 Aircraft,” March 8, 2000

      Inspector General, DoD, Report No. D-2000-98, “Spare Parts and Logistics
      Support Procured on a Virtual Prime Vendor Contract,” March 8, 2000

      Inspector General, DoD, Report No. 99-217, “Sole-Source Commercial Spare
      Parts Procured on a Requirements Type Contract,” July 21, 1999

      Inspector General, DoD, Report No. 99-026, “Commercial Spare Parts Purchased
      on a Corporate Contract,” October 30, 1998

      Inspector General, DoD, Report No. 98-088, “Sole-Source Prices for Commercial
      Catalog and Noncommercial Spares Parts,” March 11, 1998

      Inspector General, DoD, Report No. 98-064, “Commercial and Noncommercial
      Sole-Source Items Procured on Contract N000383-93-G-M111,” February 6, 1998




                                          20
    Appendix C. Selected Markups
             The following 14 purchase orders from our sample of 120 SASPS purchase orders
             had a vendor markup of more than twice the 30 percent markup allowed by the
             terms of the BPA. The amount of overcharge was determined by calculating the
             allowable price per unit (vendor’s unit cost plus the allowed 30 percent markup)
             and comparing it with the price the vendor charged DSCP.



                               Selected Overcharges of SASPS Purchases at DSCP
                                                             Unit Price
                               Vendor        Vendor           Charged      DSCP      Total Value Of        Markup
    Item Description          Unit Cost*     Quantity          DSCP       Quantity   DSCP Purchase        (percent)     Overcharge

Pre-formed packing              $ 2.50           180     $      4.08         180      $ 734.40               63.2       $ 149.40
Shear bolt                         3.56          600            5.88         410        2,410.80             65.4          515.45
O-ring                             1.02          578            1.70         578          982.60             66.7          216.17
Spiral wound gasket               22.07           66            36.90         24          885.60             67.2          197.02
Indicator light                  235.53            5          429.80            5       2,149.00             82.5          618.06
 (assembly)
Plain seal                        10.96           25            25.50         25          637.50            132.7          281.30
Plain seal                        10.18           46            24.90         46        1,145.40            144.6          536.64
Material stacking pallet         274.00            2          699.00           2        1,398.00            155.1          685.60
Special shaped seal               90.00            5          250.00            5       1,250.00            177.8          665.00
Plain seal                          8.29         142            24.75         40          990.00            198.6          558.92
Indicator light (assembly        448.36            5         1,547.81           1       1,547.81            245.2          964.94
  panel)
Body screw                          0.48         400            2.10         400          840.00            334.8          588.84
Dust protection plug                0.03       6,000            0.25       5,285        1,321.25            698.7        1,106.20
Washroom sink                     39.17           12          409.15            6       2,454.90            944.6        2,149.37

*Vendor unit costs were rounded to nearest cent. As a result, computations using unit costs may not equal the actual overcharges
 or percentages.




                                                               21
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center Philadelphia

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                          23
Defense Logistics Agency Comments




                      25
Final Report
 Reference




Appendix C




               26
     Final Report
      Reference




     Page 19




27
28
29
Final Report
 Reference




Revised




               30
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Tilghman A. Schraden
Kathryn L. Palmer
Paul A. Hollister
John A. Seger
Julius L. Hoffman
Herman Tolbert
Maria R. Palladino
Stuart W. Josephs
Glenn B. Wolff
Joy L. Clark
Henry D. Barton
